<html>
<title> - EXAMINING INVASIVE SPECIES POLICY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   EXAMINING INVASIVE SPECIES POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                              THE INTERIOR

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2015

                               __________

                           Serial No. 114-58

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                Available via the World Wide Web: http://www.fdsys.gov
                            http://www.house.gov/reform
                               
                              
                               _____________


                      U.S. GOVERNMENT PUBLISHING OFFICE
99-595 PDF                    WASHINGTON : 2016                      
  
         
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>  
        
         
         
        
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
         William McGrath, Interior Subcommittee Staff Director
            Ryan Hambleton, Senior Professional Staff Member
              Melissa Beaumont, Professional Staff Member
                       
                       SUBCOMMITTEE ON THE INTERIOR

                  CYNTHIA M. LUMMIS, Wyoming, Chairman
PAUL A. GOSAR, Arizona               BRENDA L. LAWRENCE, Michigan, 
BLAKE FARENTHOLD, Texas                  Ranking Member
KEN BUCK, Colorado, Vice Chair       MATT CARTWRIGHT, Pennsylvania
STEVE RUSSELL, Oklahoma              STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2015.................................     1

                               WITNESSES

Jamie Reaser, Ph.D., Executive Director, National Invasive 
  Species Council, U.S. Department of the Interior, Washington, 
  D.C.
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Scott J. Cameron, President, Reduce Risks from Invasive 
  Species Coalition, Washington D.C.
    Oral Statement...............................................    16
    Written Statement............................................    18
Alan D. Steinman, Ph.D., Director and Professor, Robert B. Annis 
  Water Resources Institute, Grand Valley State University, 
  Allendale Charter Township, Michigan
    Oral Statement...............................................    25
    Written Statement............................................    27
K. George Beck, Ph.D., Professor of Weed Science, Colorado State 
  University, Fort Collins, Colorado
    Oral Statement...............................................    35
    Written Statement............................................    37

                                APPENDIX

Responses prepared by Dr. Jaime Reaser to questions submitted by 
  Chairman Lummis and Rep. Gosar.................................    64
Responses prepared by Mr. Scott J. Cameron to questions submitted 
  by Rep. Gosar..................................................    70
Questions prepared by Mr. George Beck to questions submitted by 
  Rep. Gosar.....................................................    72

 
                   EXAMINING INVASIVE SPECIES POLICY

                              ----------                              


                       Tuesday, December 1, 2015

                   House of Representatives
                       Subcommittee on the Interior
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:36 p.m., in 
Room 2154, Rayburn Office Building, Hon. Cynthia Lummis 
[chairman of the subcommittee] presiding.
    Present: Representatives Lummis, Gosar, Buck, Palmer, 
Lawrence, and Plaskett.
    Also present: Representative Hurd.
    Ms. Lummis. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess at any 
time.
    Today the Subcommittee on the Interior will examine the 
problem of invasive species in the U.S., and the effectiveness 
of the Federal government's attempts to control and eradicate 
invasives. The U.S. Fish and Wildlife Service specifically 
defines an invasive specie as an exotic species whose 
introduction into an ecosystem in which the specie is not 
native causes or is likely to cause environmental or economic 
harm or harm to human health. There are currently almost 50,000 
such species living in the United States today. We promise 
there will not be a test on how many of those you can name.
    The impact of invasive species is hard to ignore. They are 
one of the leading causes of population decline and extinction 
in native plants and animals. They cause billions of dollars 
per year in damages across the country. Recently the Department 
of the Interior estimated that it spends $100,000 million 
annually on invasive species management.
    In response to this significant and growing problem, 
President Clinton created the National Invasive Species Council 
in 1999. This Council is co-chaired by the Secretaries of 
Interior, Agriculture, and Commerce. Its mission is to 
coordinate the work of numerous agencies to address and 
eradicate invasive species.
    Part of the Council's job is to produce a national 
management plan every two years for the treatment and 
eradication of endangered species. Since 1999, the Council has 
only released two plans, one in January 2001 and nearly 8 years 
later in 2008. A review of the 2001 plan by the Government 
Accountability Office found problems with coordination, delays, 
and setting clear long-term goals.
    In the past several years, there has been relatively little 
oversight of the Council's work and success in managing the 
invasive species problem. Questions continue to be raised about 
whether the Council and other Federal agencies are effectively 
treating certain invasive species.
    The spread of these nuisances is startling. Two years ago, 
Dr. George Beck testified before the House Committee on Natural 
Resources about the inefficiencies and ineffectiveness of the 
Council and the Federal government in treating invasive weeds. 
Dr. Beck warned that invasive weeds were spreading at a far 
faster pace than they were being eradicated. He questioned the 
government's claims about the amount of land infested with non-
native weeds that it successfully treated in previous years. He 
also cast doubts on whether the Council was using the most 
cost-effective means of fighting invasive species. This hearing 
will allow the Council to update us on its progress.
    In addition, we will look at the impact of three invasive 
species that have caused significant and costly headaches for 
my home State of Wyoming as well as Ranking Member Lawrence's 
home State of Michigan. Mr. Hurd will also raise some issues in 
his district in Texas. The nuisance and dangers of these 
particular non-native species provides startling illustrations 
of the harmful effects of endangered species and the need for 
capable treatment efforts.
    Our witnesses today bring a broad and diverse knowledge of 
invasive species and the havoc they wreak on our country. We 
will hear from the executive director of the Council on its 
work. We will also hear from three experts who have studied the 
risks of invasive species in America, and can provide insight 
into the importance and urgency of addressing this issue.
    As the problem of invasive species in America worsens, we 
must continue to revisit and reassess the situation and our 
treatment and eradication efforts. I look forward to the 
hearing, and I look forward to our witnesses' testimony, and I 
want to thank you for being here today.
    I also want to thank the ranking member, Ms. Lawrence, for 
being the impetus and driving force behind holding this hearing 
today. And I now recognize Ms. Lawrence, the ranking member of 
the Subcommittee on the Interior, for her opening statement.
    Ms. Lawrence. I want to say that it is a pleasure, Madam 
Chairman. I thank you for helping me bring this issue forward 
and for your leadership. I want to thank all the witnesses here 
today for appearing, and I look forward to hearing your 
testimony.
    You have heard some of the statistics that I am sure, the 
witnesses, you are very familiar with. One of the concerns we 
have is that what is our plan. The amount of money that we are 
paying to address invasive species to me should not be spent 
without a comprehensive plan. I recognize that, Dr. Reaser, you 
are new, and so we are looking forward to hearing what your 
vision and what the plan is.
    Invasive species pose serious problems to our environment, 
and we understand that, but it is also a significant challenge 
to the conservation of native fish and wildlife. No habitat or 
region is immune from the threat of invasive species. As our 
chair mentioned, we spend over $125 billion each year 
controlling these plants and animals and repairing the damage 
they inflict on our property and our natural resources.
    As we talk about our environment, you cannot leave out the 
impact that invasive species has. In Michigan, I want to talk 
about that, and one of the reasons why this is so important to 
me, zebra mussels are a serious economic threat to our 
recreational fishing and commercial activity in the Great 
Lakes. And we in Michigan are passionate about our Great Lakes 
and our water, and so when you start seeing the impact of these 
invasive species, this rises to a level of being a very serious 
concern.
    The zebra mussels alone has caused more than $1 billion in 
damage by clogging the pipes and the filtration equipment of 
municipalities and industrial water systems. They have also 
damaged boats and decks, and it costs Michigan more than $250 
million a year to clean those affected pipes and machinery. We 
are also facing a threat from the Asian carp, which can 
devastate recreational fishing if not controlled.
    According to the University of Michigan Sea Grant 
Institute, recreational and commercial fisheries contribute in 
excess to $4 to $7 billion to the economy each year. Recent 
reports show that these invasive fish have already caused 
significant problems in our Ohio and Mississippi River Basins.
    Only a few weeks ago, the Michigan Department of 
Environmental Quality and the Department of Natural Resources 
confirmed the existence of two new invasive species in water, 
and in 2014 the Administration reports it allotted an estimated 
$2.3 billion across the range of Federal agencies and 
activities to control and eradicate these species. I recognize 
that this issue requires a long-term plan, and that is what I 
want to hear today. Also I understand that scientists are 
working around the clock to create a remedy for this problem.
    Since the plan has not been revised since 2008, even though 
the regulations, it is required to issue and update every 2 
years, one of the things that I am looking for is a commitment 
for compliance, and that is something that as part of this 
committee I will be looking for in the future.
    While we have not updated our plan, we know that the 
invasive species problem has worsened, and I feel strongly that 
a lack of a comprehensive plan on how to deal with this is 
contributing to the impact. I hope to get some answers today on 
this issue so that important safeguards can put into place to 
manage this ever-increasing problem of invasive species.
    Thank you, Madam Chair.
    Ms. Lummis. I thank the ranking member. I will hold the 
record open for 5 legislative days for any member who would 
like to submit a written statement.
    Ms. Lummis. The chair also notes the presence of the 
gentleman from Texas, as I mentioned earlier, Mr. Hurd, a 
member of the full committee. We thank you very much for your 
interest in the topic today. And without objection, we welcome 
Mr. Hurd to participate fully in today's hearing.
    We now recognize our panel of witnesses. We are pleased Dr. 
Jamie Reaser, who is newly minted as the executive director of 
the National Invasive Species Council at the U.S. Department of 
the Interior. Welcome, Dr. Reaser. Mr. Scott Cameron, president 
of the Reduced Risks from the Invasive Species Coalition. Thank 
you, Mr. Cameron. Dr. Alan Steinman, you are the director as 
well as a professor at the Robert B. Annis Water Resources 
Institute at Grand Valley State University. Am I correct?
    Mr. Steinman. [Off audio.]
    Ms. Lummis. Thank you Dr. Steiman. And Dr. George Beck, 
professor of weed science at Colorado State University. I 
studied weed science at the University of Wyoming under a 
colleague of yours, probably one that was teaching me before 
you were born. But welcome today, Dr. Beck.
    [Laughter.]
    Ms. Lummis. Pursuant to the committee rules, all witnesses 
will be sworn in before they testify, so please rise and raise 
your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [A chorus of ayes.]
    Ms. Lummis. Thank you. Please be seated. Let the record 
reflect that all witnesses answered in the affirmative.
    Now, in order to allow time for discussions, please limit 
your oral testimony to 5 minutes. Your entire written statement 
will be made part of the record so we will have the advantage 
of it in case it is longer than 5 minutes.
    We will begin with Dr. Reaser. You are recognized for 5 
minutes.
    Ms. Lawrence. Turn your mic on.

                       WITNESS STATEMENTS

                STATEMENT OF JAMIE REASER, PH.D.

    Ms. Reaser. Madam Chairman, members of the subcommittee, 
thank you for inviting me to participate in the hearing on 
behalf of the National Invasive Species Council, NISC. With me 
today is Ms. Anne Kinsinger, U.S. Geological Survey's associate 
director for ecosystems. I will summarize my written testimony, 
which has been provided for the record.
    NISC was created by Executive Order 13112, known as the 
Invasive Species Executive Order, on February 3rd, 1999, to 
serve as an independent coordinating body for the Federal 
government's efforts to address invasive species. As you have 
noted, the Secretary of Interior serves as a co-chair of NISC 
along with the Secretaries of Agriculture and Commerce. The 
Secretary of Interior also hosts and oversees NISC staff. At 
this time, 10 additional departments and agencies are members 
of NISC. They are listed in my written testimony.
    As you may be aware or are aware, I started as executive 
director of NISC staff just 9 weeks ago. That said, I am not 
new to the invasive species issue. My work has largely focused 
on invasive species since 1999, not coincidentally the year in 
which the executive order was signed.
    But in actuality, my interaction with the invasive species 
issue goes back much further than that. My grandmother taught 
me to fish as a young girl. I can remember being frustrated by 
the fact that I could not catch anything other than carp. I 
desperately wanted to see pretty sunfish up close. Because the 
feeding habits of the carp muddied the water, I could not even 
see a sunfish near the dock.
    I did my doctoral work in the Great Basin in Nevada, 
specifically at the southernmost extent of the species range of 
the Columbia spotted frog. During my time in the field, I 
became aware of numerous adverse shifts taking place in the 
lands and waters of the sagebrush ecosystem: the invasion of 
annual grasses, cheatgrass, and medusahead, and the 
introduction of non-native amphibians and tropical fish, to 
name a few. Invasive species clearly warranted concern and 
concerted action.
    Since that time, I have worked on various aspects of the 
invasive species issue in more than 40 countries, frequently 
helping other governments institutionalize their capacities to 
address the invasive species issue. In the course of my work, I 
have seen firsthand how invasive species can devastate the 
lives and livelihoods of people who depend on local resources.
    Invasive species impact everyone on a personal level, 
although we may not equally or fully recognize the extent to 
which they do. If we care about food security, water security, 
human health and well-being, animal welfare, employment and the 
economy--in short, national security--we need to pay 
considerably more attention to this often subtle, yet 
nevertheless pervasive and costly issue, invasive species.
    The invasive species issue is dynamic and complex. 
Coordinating activities of Federal agencies and working with 
non-Federal stakeholders to prevent, eradicate, and control 
invasive species throughout the U.S. and abroad is a 
substantial challenge. Thankfully, challenges can be overcome.
    Two examples of successes to NISC's leadership include 
provision of expert advice for more than 100 individuals who 
have served on the non-Federal Invasive Species Advisory 
Committee, also created by the executive order. This advice has 
strengthened Federal programs and initiatives, such as our work 
on biofuels. And the implementation of the two national 
invasive species management plans that together contain more 
than 170 action items. Additional examples can be found in my 
testimony.
    As you are well aware, we are operating in a resource 
constrained world, and due to limited resources, it is fair to 
say NISC has not yet actualized its full potential. With the 
support of the Department of the Interior as well as 12 other 
NISC member departments and agencies, I intend to do all I can 
to mobilize NISC's leadership and capacities to effectively 
implement the Invasive Species Executive Order from the policy 
level to the ground level and back again.
    The work includes, but is not limited to, NISC's four major 
functions: raising awareness of the linkages between invasive 
species and various aspects of national security as they relate 
to each Department; setting priorities for international action 
that actually has impact at the ground level; fostering a 
culture of collaboration, innovation, and long-term commitment 
to problem solving; and facilitating team work across 
departments and between Federal, State, tribes, and other 
stakeholders that not only results in invasive species 
prevented and eradicated, but ecosystems and ecosystem services 
restored.
    Thank you for time and for caring about this critically 
important issue. I am happy to answer questions regarding this. 
Ms. Kinsinger is available to answer technical questions on 
specific species as needed.
    [The statement of Ms. Reaser follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Lummis. Thank you, Dr. Reaser.
    The chair now recognizes Mr. Cameron for 5 minutes.

                 STATEMENT OF SCOTT J. CAMERON

    Mr. Cameron. Madam Chairman, Ranking Member Lawrence, 
members of the subcommittee, my name is Scott Cameron. I am 
president of a nonprofit organization called the Reduce Risks 
from Invasive Species Coalition, or RRISC. I appreciate the 
opportunity to testify today on opportunities to improve 
invasive species policy and programmatic implementation in the 
United States.
    RRISC is a 501(c)(3) organization incorporated in 2014. Our 
mission is to educate the public on the risks imposed by 
invasive species and to promote cost-effective strategies to 
reduce those risks. We pride ourselves on being bipartisan with 
a distinguished advisory board comprised of former senior 
government officials from the Obama, Bush, Clinton, and Bush 
Administrations. I am pleased to say that since our inception, 
we have had a close working relationship with the Congressional 
Invasive Species Caucus, co-chaired by your own 
representatives, Dan Benishek from Michigan and Mike Thompson 
from California.
    Invasive species pose serious economic and environmental 
problems across the country. They have been estimated to cost 
the American economy more than $120 billion a year and to have 
a $1.4 trillion annual impact on the global economy. There are 
significant public health impacts from invasive species. For 
instance, invasive species, like West Nile virus and fire ants, 
put many Americans in the hospital every year, and in some 
cases they do not survive. Invasive species have single-
handedly caused 20 percent of all species extinctions since the 
1600s, and they have been implicated in up to half of all the 
species extinctions over the last four centuries.
    Indirectly, they cause increased regulatory burden on 
American society since invasives are in whole or in part 
responsible for more than 40 percent of the listings under the 
Endangered Species Act. For example, widespread distribution of 
invasive cheatgrass in Wyoming and Colorado was a key risk 
factor that almost led to the listing of the greater sage 
grouse under the Endangered Species Act earlier this year.
    If your constituents are concerned about loss of 
biodiversity and species extinctions in the United States, then 
they should also be concerned about invasive species. If your 
constituents are frustrated by the regulatory burden imposed by 
the Endangered Species Act, that is another reason to be 
concerned about invasive species because they are putting a lot 
of species on the ESA list.
    I would now like to offer a number of recommendations on 
how institutional arrangements could be improved to yield 
better results in invasive species management for our country.
    Congress should direct the National Invasive Species 
Council to present the Congress with a short annual work plan, 
5 pages in length, to include deadlines and intended outcomes 
of Council activities. This would help focus the political 
level attention in the agencies on the invasive species 
problem.
    The National Invasive Species Council should provide a 
forum for Federal interagency communication and coordination 
with regional governors associations--southern governors, 
western governors, and so on. NISC should design a national 
network of regionally-driven, early detection, and rapid 
response capabilities whose regional priorities are established 
based on the advice of the governors of those States in those 
regions.
    NISC should provide a forum for Federal agency regional 
executives, BLM State directors, regional foresters, EPA 
regional administrators, and so on, so that those regional 
officials could more easily get the attention of the 
departmental political leadership in headquarters in the Office 
of Management and Budget. And through more coordinated 
policymaking at the headquarters level, achieve better on-the-
ground coordination at the local level.
    The Council should provide a forum for ensuring and 
expediting interagency coordination at the headquarters level 
so that time sensitive decisions involving invasive species 
policy, regulatory approvals, or research are less likely to be 
caught up in bureaucratic red tape in D.C. As an example, 
facilitating Endangered Species Act, Section 7 consultation 
between USDA and EPA on new pesticides targeting invasive 
species; working with the Council on Environmental Quality to 
streamline environmental compliance for agency on the ground 
invasive species control actions; and achieving an interagency 
bio control research agenda that would effectively leverage the 
relative scientific strengths of EPA, USGS, USDA, and the 
National Science Foundation.
    Another recommendation. NISC should seek out and evaluate 
international best practices and explore the feasibility of 
adopting those best practices in the United States.
    It looks like I am over time, so I will stop, Madam. 
Chairman, and I look forward to questions.
    [The statement of Mr. Cameron follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Buck. [Presiding] Thank you, Mr. Cameron.
    The chair recognizes Dr. Steinman for 5 minutes.

              STATEMENT OF ALAN D. STEINMAN, PH.D.

    Mr. Steinman. Thank you, Chairman Buck, Ranking Member 
Lawrence, and members of the subcommittee. I appreciate the 
opportunity to testify before you today with regard to the 
threats posed by invasive species, and, in particular, their 
impacts in the Great Lakes region.
    There are four areas that I would like to cover today. The 
first is invasive species and the Great Lakes. The Great Lakes 
serve as the poster child for aquatic invasive species. It is 
now estimated since the 1800s, over 180 non-native species have 
invaded the Great Lakes ecosystem.
    The Great Lakes are a national treasure. They hold over 20 
percent of the world's surface fresh water, and over 90 percent 
of the surface fresh water in the United States. The importance 
of this resource, both in terms of water quantity and water 
quality, cannot be overstated given the increasing concerns 
over water security in this Nation and around the world.
    Aquatic invasive species are acutely felt in the State of 
Michigan, a state which touches four of the five Great Lakes--
our governor likes that four of the five Great Lakes favor 
Michigan--and where 1 in 5 jobs are linked to water. The second 
area I would like to talk about are the ecological impacts in 
the Great Lakes. These include habitat loss, food web 
disruption, and alterations to native fisheries.
    Two aquatic invasive species that have been particularly 
problematic in the Great Lakes are the sea lamprey and the 
Dreissena mussels, which include the quagga and zebra mussels. 
The sea lamprey, for those not familiar with it, is an eel-like 
parasite whose native habitat is the ocean. It got into the 
Great Lakes after the Welland Canal was improved, and it 
bypassed the Niagara Falls. By 1938, they had reached all of 
the Great Lakes.
    Sea lamprey parasitism is not a pretty site. They attach to 
fish with a suction cup mouth, and dig their teeth into fish 
flesh, and finally feed on fish body fluids by secreting an 
enzyme that prevents the blood from clotting. The lake trout 
harvest in the upper Great Lakes has declined from about 15 
million pounds per year before the sea lampreys to 
approximately 300,000 pounds now, a decline of 98 percent of 
this critical fish. The good news is the sea lamprey control 
program is very effective. We have to apply it every year, 
though, and it costs about $20 million per year.
    The zebra and quagga mussels also have caused extensive 
damage. They came in through ballast water discharge. The zebra 
mussel was first found in 1988 in Lake Sinclair, quickly 
followed by its larger and more aggressive cousin, the quagga 
mussel. In fact, the quagga mussel is now estimated to have 
about 950 trillion--that is with a ``T''--in Lake Michigan 
alone. That is a huge number. They are filter feeders there 
literally sucking the bioenergetic life out of Lake Michigan. 
Once you decline the algae levels--they are lower than they are 
in Lake Superior--there is no food for the zooplankton to feed 
on. When there is no zooplankton, there is no food for crayfish 
to feed on, and when there is no crayfish, there is no food for 
the top predators, the salmon and the lake trout, to feed on. 
So the devastation to the food web and the economic impacts are 
enormous.
    Which leads me to the third area I would like to talk 
about: the economic influences of invasive species in the Great 
Lakes. In Michigan, especially affected by aquatic invasive 
species, the industry has influenced or affected our power 
generation, industrial facilities, tourism, and sport and 
commercial fisheries, which account for about 30,000 jobs and 
almost $12 billion in annual sales based on 2010 data.
    As Representative Lawrence mentioned, the commercial and 
recreational fishery industry in the Great Lakes is estimated 
to be between $4 and $7 billion, and they are at critical risk 
by the presence of these invasive species.
    And finally, I would like to address the management 
implications. With the Asian carp at the entryways of the Great 
Lakes, we must be coordinated in our approaches to monitor our 
waterways to keep invasive species from getting into the Great 
Lakes, quarantine them when necessary and where possible, and 
then finally eradicate them when feasible. It is critical to 
recognize that in a hydraulically connected system like the 
Great Lakes, the program to control aquatic invasives is only 
as strong as the weakest link in that chain.
    Regardless of how vigilant or aggressive Michigan may be in 
dealing with aquatic invasive species, its waters remain 
vulnerable if any of the other seven Great Lakes States or two 
Canadian provinces are not as equally vigilant or aggressive. 
And this concept of vulnerability applies well beyond aquatic 
ecosystems. It applies to any connected ecosystem across its 
jurisdictional boundaries, whether it is water, land, or air.
    It is clear that we need a coordinated effort to tackle 
invasive species instead of jumping from one crisis to another, 
and good science is needed to make informed management 
decisions. I clearly understand the role of science having 
worked in the Everglades restoration before I came to Michigan, 
and I recognize that science does not dictate policy; it helps 
inform policy.
    But let me leave you with this one thought taken from Peter 
Glick, one of the foremost water resource scientists on the 
planet. It is very difficult to make good public policy without 
good science, and it is even harder to make good public policy 
with bad science.
    Thank you again for the invitation to appear before you 
today.
    [The statement of Mr. Steinman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Buck. Thank you, Dr. Steinman.
    The chair recognizes Dr. Beck for a 5-minute opening.

               STATEMENT OF K. GEORGE BECK, PH.D.

    Mr. Beck. Chairman Buck, Ranking Member Lawrence, and 
honorable members of the committee, thank you for the 
opportunity to testify before you today. I am George Beck, and 
I am a professor of weed science at Colorado State University. 
Today I represent the Healthy Habitats Coalition, and we are a 
diverse alliance dedicated to improving invasive species 
management in our country.
    In spite of almost 3 decades of efforts by many 
organizations working to persuade the Federal government to do 
a better job controlling and managing invasive species, little 
progress has been made. Zebra and quagga mussels are in the 
Great Lakes, and Asian carp is poised to invade those bodies. 
Cheatgrass, knapweeds, and tamarisk abound in the west; Burmese 
pythons, melaleuca, and hydrilla are wreaking havoc in Florida. 
Emerald ash borer and other invasive insects are invading the 
north, east, and Midwest. All of these are spreading rapidly, 
and every State has invasive species without exception.
    Cheatgrass alters habit so significantly that it is clearly 
linked to the decline of the greater sage grouse and its 
habitat. We possess, however, the knowledge and ability to 
recover cheatgrass infested safe grass habitat if we would just 
seize the initiative to do so. For example, CSU weed scientists 
just completed a comprehensive study to demonstrate such 
success, and we also have developed approaches that target and 
eliminate the cheatgrass soil seed reserve, which then will 
provide the best opportunity to recover native species habitat.
    The invasive species conundrum in the U.S. is not 
necessarily due to a lack of knowledge. Rather it is because of 
chronically poor Federal land management agency performance 
around managing invasive species. And this is a reflection of 
chronically poor administrative leadership concerning invasive 
species.
    Leadership from the National Invasive Species Council is 
practically non-existent. NISC is made up, of course, of most 
of the President's Cabinet. Most prominently, the members are 
the co-chairs, Secretaries of Agriculture, Commerce, and 
Interior. Frankly, NISC could be dissolved, and the funds used 
to operate that body should be spent on decreasing the 
population abundance of invasive species and recovering native 
species habitat.
    This poor Federal performance is due to at least four 
things that we have been able to identify: inconsistent budgets 
and non-transparency in the invasive species budgeting process, 
a lack of collaboration, prioritization, and on-the-ground 
performance with State and local governments, using NEPA as an 
excuse for inaction or justification to postpone making timely 
management decisions, and poor administrative leadership to 
develop appropriate invasive species public policy, management, 
and budgetary action.
    The solution to these problems has been introduced as 
bills, H.R. 1485 and S. 2240, the Federal Lands Invasive 
Species Control, Prevention, and Management Act. The bills 
focus on the Forest Service, BLM, National Park Service, and 
Fish and Wildlife Services. These are the major Federal land 
management agencies.
    The bills require agencies to develop an invasive species 
strategic plan that fosters agreements with States and local 
governments. The bill also has categorical exclusions that will 
protect high-value sites from invasive species, fully support 
and facilitate the development of early detection and rapid 
response, and then years and years of analysis to approve new 
management tools. The bills also require invasive species 
population to be decreased by 5 percent net annually to stay 
ahead of expansion rates, and change the spending parameters. 
And these would be 75 percent of invasive species funds to 
those agencies would have to be put on the ground. Not more 
than 15 percent of those funds can be spent on awareness and 
research, and up to 10 percent on administration. So the bulk 
of the money will be directed towards healing the problem.
    HHC has many supporters for these efforts, including an 
invasive species resolution from the Western Governors 
Association and direct support from Governor Butch Otter from 
Idaho, Governor Cecil Andrus, who is the former governor of 
Idaho and a former Secretary of Interior, and Governor Martinez 
from New Mexico. There is no Federal administrative leadership 
on invasive species. It is up to Congress to pass strong 
leadership and pass these bills. Doing so will place our 
country on the road to begin solving the invasive species 
problem. We must stop kicking this can down the road.
    Thank you again for this opportunity to share HHC's 
thoughts on invasive species management in the U.S.
    [The statement of Mr. Beck follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Buck. Thank you, Dr. Beck, and go Rams.
    [Laughter.]
    Mr. Buck. The chair will now recognize members for 5 
minutes, and will recognize himself first.
    Dr. Reaser, how does NISC coordinate its work with Federal 
agencies, and States, and local communities to combat invasive 
species?
    Ms. Reaser. Thank you for the question. NISC coordinates 
work through a series of tiers of coordination. NISC itself, as 
you are aware, are the Secretaries and administrators of the 
13-member departments. And then within the NISC structure, 
broader structure, we also have policy-level leads and more 
technical-level leads. There are interdepartmental coordination 
mechanisms throughout that structure. There are also 
coordination mechanisms between NISC and other structures 
focused on invasive species, such as the Aquatic Nuisance 
Species Task Force. And there are regular joint working groups, 
and joint committees, and joint products with that group and 
others.
    And then there are on-the-ground activities where Federal 
agency representatives are collaborating with States, and 
tribes, and other stakeholders at the ecosystem level or on a 
species-by-species specific level.
    Mr. Buck. What is the annual budget for NISC?
    Ms. Reaser. For the NISC staff?
    Mr. Buck. What is the total budget, I guess, and then if 
you want to break it down, you can explain.
    Ms. Reaser. Okay. So the approximate budget for the NISC 
staff is about a million dollars per year, and about a third of 
that 30 percent is spent on administering the Invasive Species 
Advisory Committee.
    Mr. Buck. And appropriately what percentage of the overall 
budget goes to administrative expenses?
    Ms. Reaser. So for the NISC staff just to clarify, it is 
about 65 percent would be salary, travel, basic operations. And 
then approximately 30 percent would be for the advisory 
committee's administration.
    Mr. Buck. Dr. Beck, cheatgrass continues to cause problems 
with sage grouse habitat. Could you please describe the current 
status of the cheatgrass threat and what actions have been 
taken to mitigate its spread?
    Mr. Beck. Cheatgrass is a controversial plant relative to 
how much area it occupies. I have heard data everywhere from 50 
million to over a hundred million acres, so it is really hard 
to know.
    It has not found its way everywhere. For example, 10 years 
ago was the first time cheatgrass showed up in the Gunnison 
Basin in South Central Colorado. And in the Kremmling area, 
which is, oh, 150 miles north, it has only been there for about 
5 years, or at least that is what people say.
    So it continues to find new homes. The Great Basin is 
obviously very inundated with it. It is not so bad that you can 
close your eyes and point and be looking at cheatgrass whether 
you know it or not, but we are getting close to that. It is 
there every year. I mean, I hear people talk about, well, it is 
not a bad year for cheatgrass, and I say wait until June. It is 
the same very June. And I even had a student in one of my 
classes tell me that his mother's neighbor was running around 
picking this grass from around his yard in the foothills. I 
think it was above the Estes Park area. And she wanted to know 
what he was doing, and he said, well, this does not require any 
water, I do not know what is. And he was planting cheatgrass. 
So, you know, Pogo was right when he said, we have met the 
enemy and they are us.
    So we continue to foster its spread through all kinds of 
means, some of them inadvertent, and some of them not. But the 
problem is worsening constantly.
    Mr. Buck. And what do you think NISC can do to help with 
the cheatgrass problem?
    Mr. Beck. NISC's role is to coordinate with the Federal 
agencies, and I educate a lot in the public. Half of my 
appointment is extension, and so I must give about 50 to 75 
presentations a year through Colorado alone, and I just do not 
see where any coordinating is having effect. In fact, I have 
visited with some Federal employees who do not even know NISC 
exists. So there is a transitional loss someplace between 
Washington, D.C. and the rest of the country.
    Mr. Buck. Okay. Thank you. My time is almost up, and I 
recognize the gentlelady from Michigan for 5 minutes.
    Ms. Lawrence. Thank you, Chair. Ms. Reaser, I understand 
that the one update that has been made to the management plan 
was back in 2008. Is that correct? So help me understand why 
the Council has largely not updated the management plan, and 
when will it be updated?
    Ms. Reaser. Okay. So let us step back to 2001.
    Ms. Lawrence. Okay.
    Ms. Reaser. And thank you for the question. I think it is 
an important one. As you know, in the executive order, there is 
a request for the plan to be revised every two years. The 
reasons behind that were, of course, to set priorities, raise 
visibility, and so forth, all reasonable criteria.
    When the original plan was created, there was a tremendous 
amount of enthusiasm among the departments for this new culture 
of collaboration, and the request was to bring priorities 
together in a comprehensive manner to use the word you used 
previously. The second management plan followed the pattern of 
the first management plan. It was a revision thereof, and so it 
had approximately 90 action items in it as did the first one. 
There were 170 total.
    The second management plan ran from 2008 through 2014. 
Since that time, there has been a process of moving the 
priorities forward from the first two management plans 
collectively. There has also been a process of looking at what 
items within those management plans require further work on an 
evaluation process going forward.
    There has been a delay in the process of moving it to the 
third management plan for a couple of reasons. One, there had 
been unanticipated staff turnovers and vacancies that could not 
be accounted for, and did have a significant impact on process. 
And then more recently, there was a desire to hire my position 
into place to take leadership over the third management plan, 
which I am now in the process of doing. And we are looking 
forward to having that available sometime early next year.
    Ms. Lawrence. Okay. I wanted to ask if it was achieving the 
objective of reducing the invasive species rate by 5 percent 
every year. Are you anywhere close to that goal?
    Ms. Reaser. So the Invasive Species Management Plan itself 
is a priority setting mechanism, so each item within the plan 
has different goals and objectives. Only a small percentage of 
those would be dedicated for activities related to weeds on the 
ground. As those projects move forward, each of them is going 
to have a goal that is context specific. A number of 5 percent, 
15 percent, 20 percent is not necessarily going to be fit to 
purpose for all circumstances.
    So each of the activities undertaken through the plan or 
otherwise is going to set a goal that makes sense context 
specifically.
    Ms. Lawrence. So are you reaching any of those goals?
    Ms. Reaser. Yes, many of those goals have been reached 
through this process.
    Ms. Lawrence. One of the things that the plan, it is my 
understanding that we as members of Congress should know that 
the plan is being updated, and I can tell you that has not been 
a reality. So you are saying, you are making a commitment here 
today that your plan will be updated by the spring of next 
year. And I expect that we will know that that has happened 
under your leadership. Is that correct?
    Ms. Reaser. I am willing to be personally accountable on 
that one. There are not many things that I can promise you, but 
that one I can assure you under my leadership will happen as 
soon as it is feasibly possible.
    Ms. Lawrence. I am going to have to come back for another 
round of questions, but I do want to ask this. With your 
knowledge now that you are in the position, do you have the 
funds or the resources to actively, once we get a plan, to 
implement it and to be able to state to Congress and to the 
people of the United States that we have a very proactive and 
committed plan to addressing the Invasive Species Act?
    And I love the comparison made between endangered species. 
I think we get a lot of attention and affection when we start 
talking about endangered species where you need to really talk 
about the invasive species because that is a major component of 
why we have endangered. So when you submit the plan, will you 
be able to implement it with your budget and resources?
    Ms. Reaser. That is a very good and pertinent question. We 
will make sure that where we have good alignment with current 
resources that will be well recognized. There may be cases 
where there is an action item in the plan to mobilize 
additional resources or find efficiencies with existing 
resources, and we will also work to identify that as well.
    Ms. Lawrence. You are not willing to say if you have it yet 
or not because that is what you are saying.
    Ms. Reaser. We have not finished the plan yet.
    Ms. Lawrence. Okay.
    Ms. Reaser. So it would be premature for me ----
    Ms. Lawrence. I will give you that.
    Ms. Reaser. Thank you.
    Ms. Lawrence. Thank you.
    Mr. Buck. I thank the lady from Michigan, and I recognize 
the gentleman from Arizona.
    Mr. Gosar. Thank you, Mr. Chairman. Now, Dr. Reaser, the 
Lower Colorado River is in the frontlines of battling the 
quagga mussel. So, Dr. Steinman, we join you, and the salt 
cedar. The mussels threaten the Hoover Dam, the Davis Dam, 
Parker Dam, Imperial Dam, and the Central Arizona Project, all 
of which are part of my district in Arizona. These water 
systems supply electricity and drinking water to millions 
across the Southwest.
    Now, while the problem is massive in scale, its 
implications are felt locally and require local action to 
mitigate their spread. Municipal leaders and community 
organizations in my district, such as the Lake Havasu Marine 
Association, are prepared and willing to do their part, but 
need resources to do so.
    So my first question. What specific authorizations 
currently exist for funding mitigation programs that combat 
these mussels or salt cedars on a State or local level?
    Ms. Reaser. Thank you for the question. I do not have 
specific information available on those authorities, but I 
would be happy to make that information available to you.
    Mr. Gosar. I would like to get them because I think the 
gentleman, Dr. Beck, was making this comment. We have a lot of 
surface activity, but nothing down on the local level, and it 
is imperative that we leverage those resources.
    I would also like to know what type of flexibility exists 
with matching funds from local, and States, and private 
partnerships for these authorizations. Do you have that either?
    Ms. Reaser. Thank you for the question. I am going to 
invite Anne Kinsinger to address the answer.
    Ms. Kinsinger. I do not have a comprehensive answer on 
that, but I did want to note that the Fish and Wildlife Service 
does work to coordinate the development of State wildlife 
action plans. And when a species is listed as a species of 
management concern in those plans, then grants are available. 
So I do not think that is the full answer, so I think we will 
need to get back to you with some other authorities. But that 
is a major ----
    Mr. Gosar. I would like to know that.
    Ms. Kinsinger. Yes.
    Mr. Gosar. Stay right there. I am going to jump ahead here. 
So according to Executive Order 131112, NISC is charged with 
producing a national management plan every 2 years that sets 
forth its goals for treating and eradicating invasive species. 
However, since 1999, NISC has only released two management 
plans, those in 2001 and 2008. Can you please explain why there 
has been such a delay in producing a management plan, and when 
does NISC plan to produce a national management plan?
    Ms. Reaser. Thank you for the question. To make it short 
since I have answered a version of this already, the management 
plan between 2014--that is when the second management plan 
sunsetted--sorry--between 2012, and this management plan, there 
has been a process in place to identify which items in the 
second management plan need to be moved forward to the third 
management plan. A number of items are ongoing understandably. 
Also ----
    Mr. Gosar. I get that, and I see the gentleman over here 
just wriggling, which is what I am doing, is that there is so 
much bureaucracy up here, there is nothing trickling down to 
the local levels. And this is what is frustrating about this is 
that we always have to set goals. We have to have objectives, 
and then we have to have outcomes. And if we do not have people 
on the local level included in those, we are never going 
anywhere.
    And this is what is so frustrating with these groups. I 
have got salt cedars on one side. I have got quagga mussels 
everywhere. I have bison in the Yellowstone National area in 
the Grand Canyon. This is frustrating when you are talking 
about invasive species because you have people with expertise 
and the manpower and willpower to do this, but they cannot get 
any jurisdiction or leverage coming out of your Department. 
Does that make sense to you?
    Ms. Reaser. I certainly understand and concur with your 
frustrations in terms of the priority of getting resources to 
the ground ----
    Mr. Gosar. Yes, but it is even worse than that because not 
just getting the resources. But these plans seem to get lost in 
your bureaucracy that are well intentioned and have great 
outcomes, but they cannot get any jurisdiction to say we are 
going to work with you, let us move forward with this plan. I 
mean, it is just absolutely ludicrous with the folks back home 
what is going on with this.
    Ms. Reaser. I understand your concerns, and they are 
warranted. This is a substantial issue of concern that deserves 
priority attention. I can assure you that the third management 
plan will be available early next year.
    Mr. Gosar. Well, I will have to stay. I am running out of 
time. I will stay ----
    Mr. Buck. The chair thanks the gentleman from Arizona. I 
just want to make one thing clear. Dr. Reaser, I want to make 
sure we have the correct spelling of the assisted witness in 
this matter. If you could just spell your name for the record, 
I would appreciate it.
    Ms. Kinsinger. Yes, I am Anne Kinsinger. That is Anne with 
an ``E.'' Last name K-i-n-s-i-n-g-e-r.
    Mr. Buck. Thank you very much. And the chair now recognizes 
the gentlelady from the Virgin Islands for 5 minutes.
    Ms. Plaskett. Thank you, Madam Chair, and Ranking Member 
Lawrence. Good afternoon, ladies and gentlemen, and I am so 
appreciative of you coming here to discuss this issue. Invasive 
species affect our economy, our environment, human health in 
many instances.
    And although we have not focused on it today, and I did not 
hear it in your testimonies, invasive species, such as 
lionfish, brown tree snake, and even invasive Sargassum 
seaweed, have had a devastating effect on all aspects of the 
economic development, agricultural production, and tourism, 
particularly in my district in the United States Virgin 
Islands, and in some parts of southeastern United States.
    I note that several of my colleagues from Florida have 
introduced legislation related to the lionfish, which are an 
invasive, voracious eating species that is not native to the 
waters in which they have come, and have completely attempted 
in their eating habits to annihilate our own local fish. And 
our fishermen are up in arms. Our Department of Planning and 
Natural Resources are trying to create ways to deal with this 
invasive species both in the Virgin Island, Puerto Rico, and 
particularly in areas of Florida as well.
    And there has been success in controlling a few of the 
invasive species, but it is clear you all are completely aware 
that we need to do more. Ms. Reaser, according to the submitted 
testimony, you have taken on some really important initiatives. 
And one of those initiatives is to focus on national priorities 
and targeted outputs. I wanted to know if you could tell us 
what the national priorities are, and what do you mean by 
``targeted outputs?'' And specifically, of course, you know, my 
interest would be if the territories are included in those 
priorities.
    Ms. Reaser. Certainly the territories are explicitly 
included in the work we are doing, and thank you for 
highlighting them. And in particular, they do face many 
challenges that are particular to island regions. As you are 
probably well aware, invasive species are one of the number one 
threats to biodiversity in island context, and that has 
certainly been the case in the U.S. territories.
    The national priorities are set within the National 
Invasive Species Management Plan in terms of how the Federal 
government is going to work together, but also with States, 
territories, tribes, and other partners. So each management 
plan sets forward a new set of priorities, and so we will have 
a new set early this next year.
    Ms. Plaskett. And how is that determined, in what way? Is 
it by population? Is it based on economic determinants? What 
sets those priorities?
    Ms. Reaser. Anne Kinsinger would like to address that.
    Ms. Kinsinger. Okay. Hi. I just wanted to say I am not 
speaking to what will be in the plan, but that there are a 
number of scientifically-based techniques that we can use. One 
of them is model the invasivity of the animal once it is 
detected and try to get a sense of how quickly it will spread, 
and try to be able to understand what kind of impacts it is 
going to have, because there are many invasive species that 
come to the country and really do not cause much damages, do 
not spread very quickly.
    So we have a variety of tools that we are trying to use 
that managers and policy makers can deploy to understand how 
quickly and how damaging from both an ecological and an 
economic perspective.
    Ms. Plaskett. Because the reason I was asking what are the 
benchmarks and how do you determine that is more often than 
not, in my area of the Virgin Islands, because it is seen that 
we are small in numbers, we are not given the priorities. And I 
just wanted to share something with the committee today, and I 
am asking that we show this picture, and I will pass this 
around.
    That this is what happens when the invasive species, the 
Sargassum seaweed, which if you think about an island economy 
that is based on fishing and tourism, if that is sitting on 
your beach, it is going to affect your tourism tremendously on 
a regular basis. And that is on every beach in the Virgin 
Islands these last couple of months. So thank you, and I would 
ask unanimous consent to include this in the record.
    And I just wanted to then close with, and I know I am 
running out of time. Mr. Beck, if you could tell us if you feel 
that there needs to be a change and improvement in controlling 
this and how we set these priorities.
    Mr. Beck. I am not familiar with the seaweed problem other 
than I am just aware that it exists, so I am not the expert to 
ask on that. But if we do not have the information, it needs to 
be dealt with immediately. That seems to be the case with 
almost every new invasive species, you know. Where are we 
scientifically on it?
    That is an excellent question to ask, and I think we need 
to address these species unfortunately one at a time, but that 
is part of the challenge in this. And they all need to be 
addressed.
    Mr. Buck. With no objection, the picture will be included 
in the record.
    Mr. Buck. And I would just mention to the gentlelady from 
the Virgin Island that Dr. Beck and I live close to each other, 
and we would be glad to go to the Virgin Islands this time of 
year to look at the seaweed and ----
    Ms. Plaskett. Immediately.
    Mr. Buck. Yes, immediately. Great. The chair recognizes the 
gentleman from Arizona for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman. Dr. Reaser, we are 
going to come back again to Arizona. And as you know, the 
Tamarisk salt cedar has been spread throughout the Colorado 
River Basin. It has been especially damaging to areas in 
Arizona in my district along the Gila River. These invasive and 
thirsty shrubs steal already limited water to push out native 
plants, strain agricultural resources, and disrupt economic 
activity.
    In communities where the Tamarisk invasion has developed 
into crisis, like Buckeye Arizona on the Gila River, local and 
State leaders have developed action plans to eradicate the 
shrub and restore natural habitats. However, these mitigation 
plans, like I alluded to earlier, have gotten lost in the 
complicated web of Federal invasive species policy, or have 
been flat out resisted by the Federal agencies themselves.
    So what has NISC done to engage communities and to empower 
them to leverage the local resources and expertise to address 
problems unique to their area?
    Ms. Reaser. Thank you for the question. To clarify, NISC 
itself is the Secretaries' and administrators ----
    Mr. Gosar. I understand.
    Ms. Reaser.--of the 13 member Departments. So they 
themselves would not be having a direct relationship 
coordinating with the counties. However, many of the Federal 
agency personnel working in that region have been involved in 
multi-stakeholder partnerships. You are familiar, I am sure, 
with the Tamarisk Coalition.
    Mr. Gosar. Yes.
    Ms. Reaser. And through those on the ground efforts at 
better communication and coordination, requests for assistance, 
individual priority setting, information, exercises, and so 
forth are brought up through the Federal agencies.
    Mr. Gosar. So now, is there any benefit or streamlining to 
this process in coordination with American Indian tribes?
    Ms. Reaser. Thank you for the question. Are you referring 
to the work with Tamarisk in particular or with ----
    Mr. Gosar. With any invasive species, but in this case 
Tamarisk, yes.
    Ms. Reaser. Thank you for the question. I cannot answer 
specifically with regard to Tamarisk. I can answer more broadly 
if that is of interest.
    Mr. Gosar. Sure.
    Ms. Reaser. Okay. So within the framework of the Invasive 
Species Advisory Committee that I mentioned previously, there 
are two seats dedicated for tribal representatives. There have 
been five tribal individuals who have filled those seats to 
date. The tribes are also included in numerous specific actions 
that are implemented under the National Invasive Species 
Management Plan. They may participate in specific committees, 
working groups, or task teams of particular interest to the 
tribes.
    The most recent example would be the outreach to tribes and 
inclusion of tribal representatives and the development of the 
early detection and rapid response framework that will be 
released in the near future.
    Mr. Gosar. Well, but my question is, is there any mechanism 
in which that can streamline? I mean, they have jurisdictions 
that are synonymous as a sovereign entity if it exists on their 
property. Is there is a streamlining mechanism? Not just 
representation, but is there a streamlining possibility in 
utilizing the tribes within a problem?
    Ms. Reaser. Thank you for the question. The tribes 
themselves have not brought to our attention a request for that 
process. If they did, I think we would take it into 
consideration to look at ways to coordinate better. We 
certainly would welcome more tribal participation at all levels 
of the work within the NISC and the broader NISC framework.
    Mr. Gosar. Gotcha. Dr. Beck, I mean, you have seen this 
from the ground level. How would you orchestrate something in a 
comprehensive management plan that addresses the Great Lakes 
from the Virgin Islands, to Arizona, to the Great Lakes so that 
we have all these multiple applications going on? I mean, you 
are with CSU, right?
    Mr. Beck. Yes, sir.
    Mr. Gosar. I have got ASU, U of A, NAU. I mean, they are a 
pretty good resource out there. But how would you manage a plan 
like that from your level that would address a lot of these 
things and synchronize them that may not be so bureaucratically 
top down driven?
    Mr. Beck. Well, first, I think is to involve people at the 
local level. What do they want to do? What is their land use 
vision, and then adapt from there. And then geographically you 
have to start up to the high elevation, high waters, and then 
move downstream from there rather than trying to move up. I 
have seen it go both ways, and it never works when you try to 
run upstream. But at any rate, visiting and getting input from 
the local community is absolutely essential. That is the 
starting place.
    Mr. Gosar. I know we have been chasing the mussels upstream 
up to Colorado, so we know your plight there, absolutely.
    Mr. Beck. Yes, sir.
    Mr. Gosar. One last question. Dr. Steinman, would you have 
any other comments in regards to that process?
    Mr. Steinman. Well, I think the coordination is essential. 
Without that, things are going to break down. As I mentioned in 
the oral testimony, written testimony, these invasive species 
cross jurisdictional boundaries. Any time you have these 
connected systems, the weakest link provides the problem there. 
So it is essential that people work together and have a 
coordinated effort and based on science is really going to be a 
critical element to make things successful.
    Mr. Gosar. When you empower local people, you find people 
more adaptive to be protecting, right?
    Mr. Steinman. Absolutely, and I agree with Dr. Beck in the 
sense that if you do not what their social values are at that 
local land value, you know, you are just not going to make a 
difference.
    Mr. Gosar. Thank you.
    Mr. Buck. The chair thanks the gentleman from Arizona, and 
recognizes the gentlelady from Michigan.
    Ms. Lawrence. Thank you, Mr. Chair. Mr. Cameron, I just 
want to ask a follow-up question. How do you feel the NISC, 
from your organization, how effective is it? You gave some 
recommendations. Does the plan drive the results? I would like 
to hear your opinion.
    Mr. Cameron. Thank you. Thank you, Congressman. A couple of 
thoughts. The first is a plan is ultimately just a piece of 
paper. What you really need is commitment at least at the 
assistant secretary level. More than a commitment, active 
participation. You need assistant secretaries willing to spend 
15 percent of their time worried about invasive species. 
Frankly, I do not think we have had that for quite a while. You 
need that leadership in order to drive coordination inside 
Washington in order to provide air cover, if you will, for the 
people at the regional level, at the State level who are trying 
to do the right thing. So a good plan is helpful, it is 
necessary, but it is by no means sufficient.
    What I think is really important, echoing some things we 
have heard before, is taking a lot of hints from the governors. 
Your own governor is really invested in the invasive species 
issues even with Michigan's economic problems. He has budget 
increases in the State budget for invasives. Governor 
Hickenlooper has been all over the cheatgrass issue from the 
very beginning in Colorado.
    So the Federal government needs to pay attention to where 
the governors are coming from. The Federal government can 
provide a forum for cooperation among the governors. The Great 
Lakes Restoration Initiative in your part of the country, Ms. 
Lawrence, is one example of a fairly successful model. Maybe 
WGA could do the same on cheatgrass, for instance.
    Ms. Lawrence. Well, Dr. Steinman, I introduced H.R. 1900, 
the National Sea Grant College Program. And we know it is 
administered within the National Oceanic Administration, NOAA. 
Do you believe that Congress should reauthorize it and fund new 
university research, because one of the things that I am 
hearing, and who made the quote about good science versus good 
policy. So would you please comment on that?
    Mr. Steinman. Thank you, Representative Lawrence. I am a 
strong supporter of the National Sea Grant Program administered 
under NOAA, the National Oceanic and Atmospheric 
Administration. It is really where the science, education, and 
outreach all come together on a local basis. And even though 
National Sea Grant seems to have a marine name to it, it 
applies to the gentlelady as well.
    And so, whether it is fresh water, salt water, or estuarian 
systems, Sea Grant is really there at the local level making a 
difference educating people and providing the science to help 
inform those management decisions that need to be made.
    Ms. Lawrence. You know, one of the things that I really 
want to drive this point home is that we think about just fish 
in the water. But there is an additional effect of the zebra 
mussel, an increase of blue water algae, which resulted in the 
loss of drinking water to 400,000 Ohio citizens. Can you 
explain how this invasive species has an impact on our drinking 
water?
    Mr. Steinman. Yes, thank you for the question. So the zebra 
and quagga mussels, as I said, are filter feeders, so they are 
filtering out the organisms that are in the water. And by doing 
that, they are clearing the water, and as they clear the water, 
there is more opportunity for the blue-green algae or 
cyanobacteria to start to form in that system.
    Now, it also needs nutrients as well as the light that is 
getting through the water. The nutrients particularly in the 
Western Basin of Lake Erie were coming off of farm fields. You 
had that combination of fertilizer application, a big rainstorm 
that moved it all into the lake. And then you had enough light 
for the blue-greens to grow the cyanobacteria, and because they 
release a toxin, in this case microcystins, which is toxic to 
humans, potentially toxic. That is what Toledo Water Supply 
just decided to shut down.
    Now, we have had algae blooms that are actually larger than 
the one last year that shut down the water supply, but it 
turned out that they did not grow near where the water intakes 
were. So really it makes a difference where those blooms are 
forming, but that combination does create something.
    And I want to point out for Ms. Plaskett as well that 
clearing of the water by the quagga and zebra mussels also 
results in a proliferation of what we call these green algae, 
filamentous green algae called cladophora, very similar to your 
Sargassum that is washing up on the beaches of the Great Lakes 
and creating what we call muck. And nobody wants to go where 
that muck is. Just like in the Virgin Islands, we are seeing 
the same thing in the Great Lakes.
    Ms. Lawrence. I know I only have a few seconds, but, Dr. 
Reaser, this is where I want to connect your job with these 
immediate. So when we have an invasive species affecting 
drinking water, how does these issues rise to the level of you 
responding or being able to respond to this? And when you have 
a situation of Virgin Islands, and everyone sitting here are 
likely to know what is happening, how do we as a member of 
Congress know that you are actually responding in attacking 
this, not just a report.
    But what is your action? And I am sorry, sir, I know I am 
over, but this is important.
    Ms. Reaser. It is important, and thank you for the 
question. To clarify again, NISC itself is the Secretaries and 
administrators of the 13 member departments. And in many cases, 
issues such as this do not necessarily have to rise to that 
level to get action. There are hopefully mechanisms in place in 
most States now and in some territories where there are State-
level national invasive species councils. There are also plant 
councils and aquatic councils, and they can work to bring local 
levels to State-level attention. State-level attention can then 
be brought to Federal partners and so forth.
    And hopefully at the appropriate level, we are getting 
response, whether that is a technical-level response, an 
authority-level response, or some other mechanism that needs to 
be put in place to assist. So ultimately the response comes 
through partnerships and communications on up.
    Ms. Lawrence. Thank you. Thank you for your indulgence, Mr. 
Chair.
    Mr. Buck. The chair thanks the gentlelady from Michigan, 
and recognizes the gentleman from Texas.
    Mr. Hurd. Thank you, Mr. Chairman, and I appreciate our 
panelists being here today.
    Dr. Reaser, in your opening remarks, I appreciate how you 
brought a context to this issue in how it is a national 
security issue. That is something, you know, I know a little 
something about. I spent 9 years as an undercover officer in 
the CIA chasing al Qaeda and the Taliban, you know, Iranian and 
IRGC Quds force. And it is great being able to use those 
talents and experience, you know, going after invasive weeds 
and worms. It is an important issue to the State of Texas. In 
Texas we are dealing with the branched broomrape. We are 
dealing with the Old World boll worm. We are dealing with 
cheatgrass as well.
    And, you know, we have talked here today, and I guess my 
first question is more a philosophical question. We have talked 
here today about how invasive species pose one of the greatest 
threats to the agriculture industries in the world, yet are the 
least funded and recognized. How can we change this mentality 
to become more proactive in protecting our industries?
    Ms. Reaser. Thank you for the question. I think it is a 
really good one, and something that deserves a lot more time 
than what we have available to us. I think one of the 
challenges that has existed within this issue I the 
agricultural context is the long history of using the word 
``pest'' and ``weeds,'' which do not galvanize the public's 
emotive response to this issue.
    A lot of people equate ``weeds'' to dandelions, which are 
in their background and they do not feel are particularly 
threatening. The invasive species issue itself, because of 
examples that have been emerging from around the world, is 
getting more of the public's perspective on the real risks 
associated with these non-native organisms, impacting them 
personally.
    And I think as we raise the profile of this issue, as we 
communicate case studies effectively, as we draw the 
relationships between these individual species and people's 
personal lives, whether that be in the agricultural context or 
otherwise, we will see additional calls for support in all 
sorts of ways--financial, technical, and otherwise.
    The human dimensions of this issue are of particular 
interest to me, and I would love to have a side conversation 
with you at another date if that is of interest to you.
    Mr. Hurd. It is of interest, and I appreciate that. And 
also in some of the specifics not only in how do we educate, 
you know, folks about how critical of an issue this is, the Old 
World boll worm poses a significant threat to corn, cotton, and 
other important crops throughout the U.S. And given that it 
reached Brazil and Puerto Rico, and that in June of this year 
one worm was found in Florida, is there a Federal protocol in 
place for an effective response to eliminate any isolated 
infestations before the pest spreads and becomes established in 
the U.S.?
    Ms. Reaser. Thank you for the question. I am not an expert 
on that species in particular. I know that USDA has been 
working on eradicating the Texas boll weevil, if, in fact, we 
are talking about the same species, and that that work has been 
mostly successful. I would like to follow up with you more 
specifically at a later date when I can get the specifics in 
front of me.
    Mr. Hurd. Great. I appreciate that and would welcome that. 
And my last question, there has been some conversations already 
on cheatgrass. The latest research suggests that targeting 
grazing and optimum times, either before the seed polyps 
develop or after they drop, produces recurrence on rangelands 
more than anything else we have tried. An given the tremendous 
wildfire issues and detrimental effects of sage grouse habitat 
associated with cheatgrass, should not research like this be a 
priority, and what are agencies doing to coordinate their 
efforts to streamline unnecessary environmental reviews for 
pilot projects and trials?
    Ms. Reaser. So, two different answers. Thank you for the 
questions. In terms of the grazing question in particular, 
there are nuances to the grazing that need to be looked at from 
a research perspective. There are a number of criteria that go 
into determining whether grazing is an effective technique in 
terms of managing cheatgrass. Those relate to the history of 
the land use, in particular, the condition of the land.
    The micro climate that you are looking at, whether you are 
talking about grazing with cattle versus sheep, the density of 
the animals, even the breed of the animals, can make a 
difference in terms of grazing habits. So there is various work 
going on to look at best possible strategies for managing 
cheatgrass, and they may vary across and likely will vary 
across the landscape.
    To get to the second part of your question, which I am 
going to ask you to repeat.
    Mr. Hurd. Sure. It is, you know, what are agencies doing to 
coordinate efforts to streamline unnecessary environmental 
reviews for pilot projects and initial trials?
    Ms. Reaser. Great. Apologies. Thank you for that. One of 
the priorities that emerged out of the Western Invasive Weed 
Summit that I attended two weeks ago was streamlining the NEPA 
process. This has been a priority for us for a number of years 
at this point in time, and we are going to continue to move 
ahead on looking at what we could do to provide better NEPA 
guidance and streamlining in the invasive species context into 
the New Year.
    Mr. Hurd. Mr. Chairman, I yield back the time I do not 
have.
    [Laughter.]
    Mr. Buck. The chairman thanks the gentleman from Texas, and 
recognizes the gentlelady from the Virgin Islands.
    Ms. Plaskett. Thank you. Thank you so much. I just wanted 
to go back to something that we were talking about, and that 
the ranking member, Ms. Lawrence, brought up. When you talked 
about this is layering, and the responses that come from the 
local level, to the State level, to the Federal level. You also 
talked about the management plan, and I know it is the specific 
task and the mandate of this group to really set those kind of 
guidelines and those prioritizations out.
    Can you give me an example of how this has worked in some 
of these invasive species? In your written testimony you talked 
about the Asian carp. You talked about cheatgrass. You know, we 
have given the example about the lionfish. How has this worked 
to address some of these issues on some of these specific 
invasive species issues?
    Ms. Reaser. Thank you for the question. You are 
particularly interested in the coordination mechanisms and the 
----
    Ms. Plaskett. Well, I am just trying to find out some 
specificity because I just hear a lot of very general 
discussion about how the process works, and that the management 
plans are there to make this happen. But I have not heard--
maybe it was done--what specific examples you have of where 
this has worked and where the organization, when this group has 
actually made it effective against some of these invasive 
species.
    Ms. Reaser. Okay. So I want to clarify once again that the 
National Invasive Species Council is itself the Secretary's and 
administrators of the 13-member Federal Department. So when we 
start moving onto discussions about impacts on the ground, we 
are looking at the engagement at the Agency level and Agency 
personnel.
    Ms. Plaskett. Right, but you set those. You set those 
priorities in that national plan and the management of how that 
is going to be done, is that not right, in your coordination of 
all of these agencies.
    Ms. Reaser. The management plan sets out a series of 
actions to be taken over the life of the management plan.
    Ms. Plaskett. And the management plan is how, in fact, 
these agencies are going to attack these invasive species 
issues, right?
    Ms. Reaser. The management plan sets out goals and 
objectives for achieving certain things. It is not prescriptive 
in telling the agencies how specifically to move forward on 
that particular action.
    Ms. Plaskett. But it sets out guidelines for these agencies 
on how this is supposed to be done? That is a yes or a no. Does 
it?
    Ms. Reaser. It sets out priority actions. It does not 
explicitly set out guidelines.
    Ms. Plaskett. So in setting the priorities for them, can 
you give me an example of how those priorities have not been 
set since this group has been made, how it has been effective 
in the invasive species fight?
    Ms. Reaser. Okay. So I can give you a specific example for 
what is happening on the ground right now within the work that 
is being done on cheatgrass. Under a second ----
    Ms. Plaskett. Is that the only way you are able to tell me 
what it is working on? You are not able to tell me what has 
been done and what has been effective in the past as yet?
    Ms. Reaser. I can go through a number of action items in 
the plan. There are 170 various action items, and I can go 
through with you at a later date ----
    Ms. Plaskett. Are there too many action items?
    Ms. Reaser. Pardon?
    Ms. Plaskett. Are there too many action items maybe? If I 
give my kids too many chores, they will never get any of them 
completed.
    Ms. Reaser. I understand your concern with the number of 
activities and the action items, and I can assure you in the 
next management plan ----
    Ms. Plaskett. I am not concerned. You just cited so many of 
them as a reason you are not able to tell me which ones they 
have completed.
    Ms. Reaser. Well, I can pull out the two management plans 
at the moment, and I could go through them with you. We do not 
have time obviously to do that right now. It is something we 
could sit down and do together.
    Ms. Plaskett. I just asked for one example.
    Ms. Reaser. So one example in the management plan was to 
provide resources to develop an international infrastructure 
for sharing information on invasive species. A number of 
activities actually have taken place to result in that. The 
Global Invasive Species Information Network was created that is 
housed by the U.S. Geological Survey.
    We have also contributed resources to setting up a global 
database. You could call it a global encyclopedia through an 
organization known as CAVI. That provides information that can 
be used in the agricultural sector, in the environmental 
sector, and otherwise to inform decision making, such as risk 
analyses and risk assessments on the invasive species issue.
    Ms. Plaskett. And any of these, have you been able to show 
where the action items, the action that has been taken, has 
actually scaled back the invasive species, or what the impact 
that those have had on the particular areas that they have 
affected?
    Ms. Reaser. At this point in time, without actually going 
to the agencies and asking for that particular data ----
    Ms. Plaskett. Can you ask? That is the ultimate goal of the 
group. Would that not be something that you would know 
immediately to be able to say that what you have been working 
on all these years, this is the outcome and this is how we have 
been able to beat back this national crisis, this national 
security issue?
    Ms. Reaser. I understand your concern, and if the 
management plan action items were specifically targeted towards 
an on the ground response, that would be feasible, and I can 
collect that information.
    Many of the items in the management plan are actually 
focused on enhancing coordination, cooperation, efficiencies, 
and resource spending, partnerships with States and tribal 
governments.
    Ms. Plaskett. And is not all of that the ultimate goal to 
eradicate the invasive species?
    Ms. Reaser. They are all creating the enabling environment 
to allow that to happen.
    Ms. Plaskett. Dr. Reaser, that is just yes or no. Is not 
that the ultimate goal of the organization is to do that?
    Ms. Reaser. The ultimate goal of ----
    Ms. Plaskett. Yes? No?
    Ms. Reaser.--the National Invasive Species Council is to 
facilitate coordination and cooperation of specific duties that 
are outlined in the executive order.
    Ms. Plaskett. To what end?
    Ms. Reaser. Ultimately to the end of preventing, and 
controlling ----
    Ms. Plaskett. So the answer would be ----
    Ms. Reaser.--and eradicating invasive species. However, the 
activities are often many steps removed from what is happening 
on the ground. So the ability to say we have created an 
invasive species database is creating an enabling environment 
to enable people on the ground, whether that is cheatgrass, or 
zebra mussels, or weevils in Texas, to make a difference.
    However, being able to say that the data in that database 
directly resulted in 300 infestations being intercepted in the 
field is understandably quite difficult.
    Ms. Plaskett. Thank you. Thank you, Mr. Chair.
    Mr. Buck. The chair thanks the gentlelady from the Virgin 
Islands, and recognizes the gentleman from Alabama.
    Mr. Palmer. Thank you, Mr. Chairman, and I would like to 
thank the witnesses for being here and for their testimony.
    I have got a question about how some of these invasive 
species enter the country, and I just want to ask, Dr. Reaser, 
I know that the Department of Agriculture and Department of 
Interior are involved. But is there an ongoing discussion 
about, for instance, sportsmen have brought in certain plants 
that they think are good for wildlife that have turned out not 
so well. This has been the case in Alabama.
    And I think as we talk about how to deal with the invasive 
species who are already here, we need to be talking about how 
we can prevent some of them from being brought into the 
country. Can you tell me what kind of activity takes place, 
what kind of discussions, what kind of strategic planning is 
going on to prevent that?
    Ms. Reaser. Thank you for the question. We generally 
discuss these in the context of pathway interdiction and 
prevention at the border. And I am sure you are well aware, 
there are numerous controls in place at our ports of entry both 
on the agricultural side and on the wildlife and human health 
side to intercept organisms before they come into the States. 
There also are mechanisms in place to interdict various 
pathways by which organisms may be introduced, whether that is 
through horticulture or other means.
    One of the ways in which we are adding value at this point 
in time is to increase our capacities for risk analysis, our 
ability to look at species before they come to the United 
States, and determining what is the likelihood of those 
organisms being harmful if they arrive here so that we can 
proactively make choices about which species to let in and 
which species to prohibit.
    Mr. Palmer. When these things are brought in, and there 
was, I think, it is an Asian version of oak trees that was 
brought in that a lot of people thought was a great idea for 
deer and wild turkey, have now decided that it is not. Is there 
any effort to limit the introduction of something like that so 
that you have got a 5-, 10-year period to determine if it is 
problematic? What is the process?
    Ms. Reaser. So ideally, risk analyses are informed by the 
best available science that you have. They also take other 
values and economic concerns into consideration. So if that or 
any organism became an issue of concern for importation into 
the United States, a risk analysis could take place, and it 
could determine based on the output of that risk analysis 
whether there were reasons to prohibit that organism, whatever 
it happened to be, and authorities in place to then follow up 
with the prohibition.
    Mr. Palmer. In the South, we have had to deal with an 
invasive species called kudzu. But we have also been dealing 
with an invasive weed called Cogan grass, and I think it came 
into the country as packing material. And, again, it gets back 
to the collaboration between the various Federal agencies and 
departments of government to make sure that if we bring 
something in, that it does not have the capacity, first of all, 
to reproduce, which I think that surprised a number of people 
when that happen.
    But in that regard, Dr. Beck, you are the weed specialist. 
What impact does the NEPA process have on the efforts to 
control the spread of invasive weeds like cheatgrass, and is it 
helping or hurting these efforts, or other things like cogon 
grass, for instance?
    Mr. Beck. My apologies. I did not hear the one word. My 
hearing is horrible. NEPA you said?
    Mr. Palmer. Right, NEPA. N-E-P-A.
    Mr. Beck. My experience personally with NEPA is with 
working with others that have had to do battle with them, and I 
guess that is the term that they would prefer to use. It can be 
an onerous process. It is by design meant to be thorough, but 
one does not have to take 10 years to make a decision.
    I think the process is good when it is used as it is 
supposed to be used, but unfortunately we run into situations 
where there seems to be a lot of misuse. In other words, the 
people who are making the assessment simply do not want 
something coming in, or they do not care, and it go could go 
either way. NEPA is a problem that needs to be addressed and 
streamlined.
    Mr. Palmer. My time has expired. Thank you, Mr. Chairman.
    Mr. Buck. The chair thanks the gentleman from Alabama, and 
recognizes the gentlelady from Michigan.
    Ms. Lawrence. I want to thank you all for being here. For 
my last set of questions, Mr. Cameron, I agree with your 
suggestion that Congress should direct the Council to furnish 
us with a short annual work plan to help focus attention on the 
Council's work. Ms. Reaser, do you have any objection to that 
suggestion?
    Ms. Reaser. Thank you for the question, and I appreciate 
the suggestion that Scott Cameron has brought forward. My 
request would be that any reporting be tied into the National 
Invasive Species Management Plan process so that the reporting 
on that can happen concurrently with any requests so that we 
are making sure that we are being efficient in our reporting 
processes.
    The current reporting for the National Invasive Species 
Management Plan is set at the executive order for 18 months 
after each management plan. And as we move forward, we intend 
to report out on that time frame.
    Ms. Lawrence. I would strongly recommend that as you are 
working on the plan, that you look at providing us with 
updates.
    I want to ask Dr. Steinman, what can the Federal government 
do to be helpful in your effort in curbing invasive species in 
the Great Lakes? What can the Federal government do? I am a 
little concerned that we have a plan that does not really cause 
action. It is a plan. So please tell me, what can we do?
    Mr. Steinman. Well, thank you, Representative Lawrence. It 
really depends on the vector that we are talking about for 
introduction because there are so many ways that invasive 
species can get into the Great Lakes or into any ecosystem. So, 
again, that coordination is really critical if you are talking 
about species that are coming in from ballast water 
introduction. And it is critical that the EPA, the U.S. Coast 
Guard are all working together, the Canadian government as well 
as the U.S. government are working to make sure that none of 
these salties are discharging any of the ballast water 
organisms that would get in that way.
    But in many cases, some of these organisms are being 
introduced just by unintentional means or through the live 
aquaculture trade, and that is when USDA needs to come into 
play. So, again, it gets down to coordination. I know this is a 
common refrain we have been hearing, not just amongst the 
Federal government, although that is an important resource for 
us not just in terms of their management strategies, but in 
terms of resources, monetary resources. But then working with 
the State and local agencies as well to make sure that that 
plan once developed is coordinated and can be implemented in a 
rigorous way.
    Ms. Lawrence. Thank you so much. I want the panel to know, 
Dr. Reaser, that I am looking forward to that report and your 
leadership, but leadership is needed. All the members who have 
spoken here, we represent different parts of this country, and 
the issues that we are talking about, and we covered it. It is 
economic. It is our water quality. It is recreational. It is 
jobs. It is our economy. All these things are tied to this.
    And it seems like there has been this kind of whatever 
attitude, and under your leadership, and it is something that 
is going to be a priority for me as a member of Congress, is 
that we continue to put the focus and the energy. This is not a 
job to come in and just kind of sit on the side because nobody 
cares what you are doing. You have a tremendous background when 
you talk about your resume, and so you understand the impact of 
this.
    And this hearing to me is important because this is a major 
impact. You know, I am from the Great Lakes, but you heard 
Texas. You heard Florida. You heard the Islands. This is 
something that requires the commitment and the passion, and I 
am sitting here. I am looking forward to that leadership. I am 
going to be actively looking for that report.
    And this issue of coordinating the levels of government is 
extremely important, and I expect for the plan to lay out that 
process so that we have a process where at least there is a 
plan where if I am a governor, this is the layers and this is 
how we move forward, and there is a process for that. So I want 
to thank you all for you being here and your expertise.
    I yield back my time, sir.
    Mr. Buck. The chair thanks the gentlelady from Michigan. 
And in closing, I would like to thank our witnesses for taking 
the time to appear before us today.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
